   March 15, 2005




Infrastructure and Environment

Defense Commissary Agency’s Data
Call Submissions and Internal Control
Processes for Base Realignment and
Closure 2005
(D-2005-041)




            Department of Defense
           Office of Inspector General
Quality             Integrity        Accountability
  Additional Copies

  To request copies of this report, contact Ms. Kimberley A. Caprio at (703)
  604-9202 (DSN 664-9202) or Ms. Carol N. Gorman at (703) 604-9314
  (DSN 664-9314).

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                     Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704




Acronyms
BRAC                  Base Realignment and Closure
COBRA                 Cost of Base Realignment Actions
DeCA                  Defense Commissary Agency
DoD OIG               Department of Defense Office of Inspector General
ICP                   Internal Control Plan
JCSG                  Joint Cross Service Group
JPAT 7                Joint Process Action Team Criteria Number 7
OSD                   Office of the Secretary of Defense
                            INSPECTOR GENERAL
                           DEPARTMENTOFDEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704




                                                                          March 15,2005
MEMORANDUM FOR DIRECTOR, DEFENSE COMMISSARY AGENCY
SUBJECT: Report on Defense Commissary Agency's Data Call Submissions and
         Internal Control Processes for Base Realignment and Closure 2005 (Report
         NO. D-2005-041)

        We are providing this report for information and use. No written response to this
report was required, and none wes received. Therefore, we are publishing this report in
final form.
        We appreciate the courtesies extended to the staff. Questions should be directed
to h$. Kimberley A. Caprio at (703) 604-9202 @SN 664-9202) or Ms. Carol N. Gorman
at (763) 604-g314 (DSN 664-9314). See Appendix C for the report distribution. The
team members are listed inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:



                                            Acting Director
                                       for Contract Management
               Department of Defense Office of Inspector General
Report No. D-2005-041                                                 March 15, 2005

   (Project No. D2004-D000CB-0056)

           Defense Commissary Agency's Data Call Submissions
                 and Internal Control Processes for Base
                     Realignment and Closure 2005

                                 Executive Summary

Who Should Read This Report and Why? Office of the Secretary of Defense
personnel responsible for deciding the realignment or closure of military installations
based on the Base Realignment and Closure (BRAC) data calls, and Defense
Commissary Agency management personnel should read this report. The report
discusses the validity, integrity, and supporting documentation of the data provided by
the Defense Commissary Agency to assist the Secretary of Defense in BRAC 2005
recommendations.

Background. BRAC 2005 is the formal process outlined in Public Law 101-510,
“Defense Base Closure and Realignment Act of 1990,” as amended, under which the
Secretary of Defense may realign or close military installations inside the United States
and its territories. As part of BRAC 2005, the Under Secretary of Defense (Acquisition,
Technology, and Logistics) issued “Transformation Through Base Realignment and
Closure (BRAC 2005) Policy Memorandum One—Policy, Responsibilities, and
Procedures,” April 16, 2003, which stated that the Department of Defense Office of
Inspector General would review the accuracy of the BRAC data and certification process.

The BRAC 2005 process was divided into the following data calls: capacity analysis,
supplemental capacity, military value, Cost of Base Realignment Actions, Joint Process
Action Team Criteria Number 7, and scenario specific. The supplemental capacity,
military value, Cost of Base Realignment Actions, and Joint Process Action Team 7 data
calls are collectively known as the second data call. We issued 14 site memorandums
pertaining to the capacity analysis data call, and 4 site memorandums for the second data
call. Each memorandum summarized site visit results. This report summarizes issues
related to the data calls as of January 13, 2005, for the Defense Commissary Agency
BRAC 2005 process.

The Defense Commissary Agency, headquartered at Fort Lee, Virginia, operates a
worldwide chain of 273 commissaries to provide groceries to U.S. military personnel,
retirees, and their families. The Defense Commissary Agency has three regional offices
worldwide, which manage commissary operations. In addition, the Defense Commissary
Agency maintains a Human Resources Department in Alexandria, Virginia, and the
Nichols II building, a headquarters satellite office, in Hopewell, Virginia.

Results. We evaluated the validity, integrity, and supporting documentation of
BRAC 2005 data and compliance with the Office of the Secretary of Defense and
Defense Commissary Agency Internal Control Plans at 14 sites for the capacity analysis
data call, 4 sites for the second data call, and 1 site for the scenario specific data calls (see
Appendix A for a list of judgmentally selected sites visited). As of our January 13, 2005,
visit, the Defense Commissary Agency received and we reviewed responses to seven
scenarios. Subsequent to our site visit, the Joint Process Action Team Criteria Number 7
group may request further changed responses; we will not be reviewing those responses.
By the conclusion of our review, the Defense Commissary Agency resolved any data call
questions that required changes or additional information. As a result, Defense
Commissary Agency BRAC 2005 data call responses for the sites visited were supported,
complete, and reasonable. In addition, the data collection processes generally complied
with applicable internal control plans and the Defense Commissary Agency Internal
Control Plans properly incorporated the Office of the Secretary of Defense Internal
Control Plan. However, we identified an internal control weakness at one site visited,
and internal control plan noncompliance at two sites. The internal control weakness and
internal control plan noncompliance were not material and should not impact the
reliability of the Defense Commissary Agency data for use in BRAC 2005 analysis.

Management Comments. We provided a draft of this report on February 18, 2005. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.




                                               ii
Table of Contents
Executive Summary                                                     i

Background                                                           1

Objectives                                                           3

Finding
     Defense Commissary Agency BRAC 2005 Data Call Submissions and
        Internal Control Processes                                    4

Appendixes
     A. Scope and Methodology                                         8
     B. Prior Audit Coverage                                         16
     C. Report Distribution                                          18
Background
    BRAC 2005. Public Law 101-510, “Defense Base Closure and Realignment Act
    of 1990,” as amended, establishes the procedures under which the Secretary of
    Defense may realign or close military installations inside the United States and its
    territories. The law authorizes the establishment of an independent Commission
    to review the Secretary of Defense recommendations for realigning and closing
    military installations. The Secretary of Defense established and chartered the
    Infrastructure Executive Council and the Infrastructure Steering Group as the
    BRAC 2005 deliberative bodies responsible for leadership, direction, and
    guidance. The Secretary of Defense must submit recommendations to the
    independent Commission by May 16, 2005.

    Joint Cross Service Groups. A primary objective of BRAC 2005, in addition to
    realigning base structure, is to examine and implement opportunities for greater
    joint activity. The Office of the Secretary of Defense (OSD) established seven
    Joint Cross Service Groups (JCSG): Education and Training, Headquarters and
    Support Activities, Industrial, Intelligence, Medical, Supply and Storage, and
    Technical. The JCSGs addressed issues that address common business-oriented
    support functions, examined functions in the context of facilities, and developed
    closure and realignment recommendations based on force structure plans of the
    Armed Forces and on selection criteria. To analyze the issues, each JCSG
    developed data call questions to obtain information about the functions that they
    reviewed.

    BRAC Data Calls. The BRAC 2005 process was mandated for the United States
    and its territories and was divided into the following data calls: capacity analysis,
    supplemental capacity, military value, Cost of Base Realignment Actions
    (COBRA), Joint Process Action Team Criteria Number 7 (JPAT 7), and scenario
    specific. The supplemental capacity, military value, COBRA, and JPAT 7 data
    calls are collectively known as the second data call. The Services, Defense
    agencies, and Defense-wide Organizations used either automated data collection
    tools or a manual process to collect data call responses. Specifically, the data
    calls were to accomplish the following:

           •   The capacity analysis data call gathered data on infrastructure, current
               workload, surge requirements, and maximum capacity.

           •   The supplemental capacity data call clarified inconsistent data
               gathered during the initial capacity analysis data call.

           •   The military value data call gathered data on mission requirements,
               land and facilities, mobilization and contingency, and cost and
               manpower.

           •   The COBRA data call gathered data to develop costs associated with
               realigning or closing specific functions or bases.




                                          1
                     •    The JPAT 7 data call gathered data to assess the community’s ability
                          to support additional forces, missions, and personnel associated with
                          individual scenarios.1

                     •    The scenario specific data calls gathered data related to scenarios for
                          realignment or closure.

            Department of Defense Office of Inspector General Responsibility. The
            “Transformation Through Base Realignment and Closure (BRAC 2005) Policy
            Memorandum One—Policy, Responsibilities, and Procedures,” April 16, 2003,
            required the Department of Defense Office of Inspector General (DoD OIG) to
            provide internal control plan (ICP) development and implementation advice,
            review the accuracy of BRAC data, and evaluate the data certification processes.
            In addition, the memorandum required DoD OIG personnel to provide assistance
            as needed to the JCSGs and DoD Components. This report summarizes the
            results of the DoD OIG efforts related to the Defense Commissary Agency
            (DeCA) BRAC 2005 process.

            ICPs. ICPs outlined management controls designed to provide accountability for
            information used in the BRAC 2005 process. Before the BRAC data calls were
            released, OSD required the JCSGs, Services, and Defense agencies to prepare
            ICPs that incorporated and supplemented the OSD ICP. The OSD ICP was
            distributed under the Under Secretary of Defense (Acquisition, Technology, and
            Logistics) memorandum “Transformation Through Base Realignment and
            Closure (BRAC 2005) Policy Memorandum One—Policy, Responsibilities, and
            Procedures,” April 16, 2003. The original DeCA ICP, “Defense Commissary
            Agency Internal Control Plan for 2005 Base Realignment and Closure Process,”
            dated December 31, 2003, was updated on July 20, 2004. The update was
            necessary because DeCA changed its data collection tool as it considered the tool
            used for the second data call to be more user-friendly. For the second and
            scenario specific data calls, DeCA used the July 20, 2004, ICP.

            DeCA. With headquarters at Fort Lee, Virginia, DeCA operates a worldwide
            chain of 273 commissaries to provide groceries to U.S. military personnel,
            retirees, and their families. DeCA performs operational management on a
            regional basis with three regions headquartered in Norfolk, Virginia; Sacramento,
            California; and Kapaun Air Station, Germany.2 Of the 273 commissaries, all but
            7 are located on a DoD installation. In addition to the commissaries and regional
            offices, DeCA maintains a Human Resources Department in Arlington, Virginia,
            and the Nichols II building, in Hopewell, Virginia. We visited 14 sites for the
            capacity analysis data call, 4 sites for the second data call, and 1 site for the
            scenario specific data call. See Appendix A for a list of sites visited and question
            numbers reviewed for each data call.



−
1
    A scenario is a description of one or more potential closure or realignment actions identified for formal
    analysis by either a JCSG or a Military Department.
2
    During the data call reviews, DeCA had a fourth regional office, the Midwest Region, headquartered in
    San Antonio, Texas. Therefore, the audit team reviewed BRAC 2005 data for this regional office. This
    regional office has now organizationally merged with the Eastern Region to create DeCA East.

                                                         2
Objectives
    The overall objective of the audit was to evaluate the validity, integrity, and
    supporting documentation of data that DeCA collected and submitted for the
    BRAC 2005 process. In addition, we evaluated whether DeCA complied with the
    OSD and DeCA ICPs. This report is one in a series on data call submissions and
    internal control processes for BRAC 2005. See Appendix A for a discussion of
    the audit scope and methodology and review of the management control program
    related to the objectives. See Appendix B for prior coverage.




                                       3
                   Defense Commissary Agency BRAC 2005
                   Data Call Submissions and Internal
                   Control Processes
                   By the conclusion of our review, DeCA resolved any data call questions
                   that required changes or additional information. As a result, DeCA
                   BRAC 2005 data call responses for the sites visited were supported,
                   complete, and reasonable. In addition, the DeCA sites generally complied
                   with the ICPs and the DeCA ICPs properly incorporated the OSD ICP.
                   However, during the second data call, we identified an internal control
                   weakness at one of the sites visited and ICP noncompliance at two of the
                   sites visited.

                       •   The ICPs did not clearly require separation of duties among the
                           DeCA personnel involved in the data call submissions. Despite that
                           lack of clear guidance, only the Eastern Region failed to properly
                           separate duties.

                       •   DeCA Headquarters and the Eastern Region did not consistently
                           provide the required information when certifying their responses.

                   The internal control weakness and ICP noncompliance were not
                   considered material and should not impact the reliability of the DeCA data
                   for use in BRAC 2005 analysis.

DeCA BRAC 2005 Data Call Submissions
          By the conclusion of our review, DeCA resolved any data call questions that
          required changes or additional information. As a result, DeCA BRAC 2005 data
          call responses for the sites visited were supported, complete, and reasonable. For
          the capacity analysis, second, and scenario specific data calls, DeCA provided
          either an answer or a “Not Applicable” response to the questions. A “Not
          Applicable” response was provided when either DeCA management or the
          specific site determined that the question did not apply to the location. To ensure
          accuracy, we compared the DeCA responses to supporting documentation and
          reviewed the responses to ensure reasonableness and completeness.

          Capacity Analysis Data Call. By the conclusion of our review, DeCA resolved
          any data call questions that required changes or additional information. As a
          result, DeCA capacity analysis data call responses for the sites visited were
          supported, complete, and reasonable. Specifically, the answers were supported,
          complete, and reasonable; and the “Not Applicable” responses were reasonable.
          The OSD BRAC office sent DeCA Headquarters 753 capacity analysis data call
          questions. DeCA BRAC officials reviewed those questions and selected specific
          questions to forward to each DeCA site. DeCA BRAC officials forwarded
          79 questions to DeCA Headquarters;3 43 questions to each of the 3 regional
−
3
    DeCA Headquarters used information from the Nichols II building and the Human Resources Department
    to complete its responses.

                                                   4
           offices located in the continental United States; and 6 questions to each of the
           188 commissaries located in the continental United States, Hawaii, Alaska, Puerto
           Rico, and Guam. These questions were either answered or determined to be not
           applicable by the site. We evaluated the responses and supporting documentation
           at DeCA Headquarters, the 3 regional offices, and 10 judgmentally selected
           commissaries. At the sites visited, we identified responses lacking reasonable
           support and responses that were inconsistent with the support provided. Based
           upon our review and discussions with DeCA BRAC officials, the DeCA sites
           processed change adjudications4 and provided supporting documentation to
           correct each of the issues raised. We verified and concurred with the changes.
           DeCA BRAC officials stated that they would forward the changed responses to
           the OSD BRAC Office. However, we did not verify that the responses made it
           into the OSD Database.

           Second Data Call. By the conclusion of our review, DeCA resolved any data call
           questions that required changes or additional information. As a result, DeCA
           second data call responses for the sites visited were supported, complete, and
           reasonable, with the exception of Headquarters and Support Activities military
           value questions 19075 and 19086 because we were unable to validate the steps
           taken to generate the responses. Specifically, the answers were supported,
           complete, and reasonable; and the “Not Applicable” responses were reasonable.
           The JCSGs sent questions to DeCA Headquarters. DeCA BRAC officials
           reviewed those questions and selected specific questions to forward to each site.
           DeCA BRAC officials forwarded questions to the following sites: DeCA
           Headquarters, the Nichols II building, the Human Resources Department, the
           three regional offices, seven stand-alone7 commissaries, and the six commissaries
           located in the National Capital Region. Specifically, DeCA BRAC officials
           forwarded 56 questions to DeCA Headquarters; 46 questions to the Nichols II
           building; 64 questions to the Human Resources Department; and based on their
           geographical location, 66 to 85 questions to the regional offices and 5 to
           44 questions to the commissaries. Sites either answered or determined the
           questions to be not applicable.

           We evaluated the responses for each site and identified responses lacking
           reasonable support and responses that were inconsistent with the support
           provided. Based upon our review and discussions with DeCA BRAC officials,
           the DeCA sites processed change adjudications and provided supporting
           documentation to correct each of the issues raised. We verified and concurred
           with the changes. DeCA BRAC officials stated that they would forward the
           changed responses to the OSD BRAC Office. However, we did not verify that the
           responses made it into the OSD Database.


−
4
    A change adjudication is the process for amending and documenting the correction of a certified response
    in the BRAC data.
5
    The question asks for the number of meetings between an organization’s senior officials, including flag
    officers, and senior officials from another organization located in the Washington, D.C. area.
6
    The question asks for the number of meetings between an organization’s senior officials, including flag
    officers, and members of Congress or their staffs.
7
    A stand-alone commissary is a commissary, leased or owned, that is not located on a military installation.



                                                       5
     During the January 13, 2005, scenario specific site visit, we reviewed JPAT 7
     questions from an errors and omissions list prepared by the JPAT 7 group for the
     DeCA responses that were either left blank or seemed out of the ordinary. We
     evaluated responses for each applicable site and identified responses lacking
     reasonable support and responses that were inconsistent with the support
     provided. Based upon our review and discussions with DeCA BRAC officials,
     the DeCA sites processed change adjudications and provided supporting
     documentation to correct each of the issues raised. We verified and concurred
     with the changes. DeCA BRAC officials stated that they would forward the
     changed responses to the OSD BRAC Office. However, we did not verify that the
     responses made it into the OSD Database. Subsequent to our site visit, the
     JPAT 7 group may request further changed responses; we will not be reviewing
     those responses.

     Scenario Specific Data Calls. By the conclusion of our review, DeCA resolved
     any data call questions that required additional information. As a result, DeCA
     scenario specific data call responses for the sites visited were supported,
     complete, and reasonable. OSD forwarded seven scenario specific data calls only
     to DeCA Headquarters. We evaluated the responses and supporting
     documentation and identified responses lacking reasonable support. Based upon
     our review and discussions with DeCA BRAC officials, DeCA provided
     supporting documentation to correct each of the issues raised. We verified and
     concurred with the changes. The changes did not require an update to the
     scenario specific responses.

Internal Control Processes
     The DeCA sites generally complied with the DeCA ICPs and the DeCA ICPs
     properly incorporated the OSD ICP. However, during the second data call, we
     identified an internal control weakness at one of the sites visited and ICP
     noncompliance at two of the sites visited. We evaluated compliance with DeCA
     ICPs at 14 sites for the capacity analysis data call, 4 sites for the second data call,
     and 1 site for the scenario specific data call. We ensured that the DeCA ICPs
     incorporated the OSD ICP and evaluated whether sites completed nondisclosure
     agreements, properly maintained e-mail information, appropriately marked and
     safeguarded BRAC data, and maintained complete BRAC data files.

     Completeness of ICPs. Both DeCA ICPs outlined internal controls to adequately
     provide accountability for DeCA information to include defining BRAC 2005
     responsibilities of DeCA organizations and control mechanisms to safeguard
     DeCA BRAC information. In addition, the ICPs identified required
     documentation to justify changes made to data and information received from
     subordinate levels of the organization. However, neither the OSD ICP, nor the
     two DeCA ICPs required separation of duties as a basic premise of sound internal
     controls. Specifically, the DeCA ICPs did not require that different persons be
     responsible for answering, reviewing, and certifying data call responses. Despite
     the lack of clear guidance, only the Eastern Region failed to properly separate
     duties, and had a single individual certify the data call responses as the responder,
     reviewer, and certifying official. However, we determined the Eastern Region
     responses and support were reasonable; therefore, we consider the internal control
     weakness to be immaterial.


                                            6
    Compliance with ICPs. DeCA sites were generally compliant with the ICP
    procedures with the exception of DeCA Headquarters and the Eastern Region.
    DeCA sites completed nondisclosure agreements, properly maintained e-mail
    information, appropriately marked and safeguarded BRAC data, and maintained
    complete BRAC data files. The ICP procedures required that each response have
    a certification page that included the signature of the answerer, reviewer, and
    certifying official and the certification date. We determined that DeCA
    Headquarters personnel did not properly date the certification pages and the
    Eastern Region responders did not consistently sign the certification pages.
    Despite the lack of dates and signatures, the Eastern Region and DeCA
    Headquarters’ responses and support were reasonable; therefore, we consider the
    noncompliance with ICP procedures to be immaterial.

Conclusion
    By the conclusion of our review, DeCA resolved any data call questions that
    required changes or additional information. As a result, DeCA BRAC 2005 data
    call responses for the sites visited were supported, complete, and reasonable. In
    addition, the data collection processes generally complied with applicable internal
    control plans and the DeCA ICPs properly incorporated the OSD ICP. However,
    we identified an internal control weakness at one site visited, and internal control
    plan noncompliance at two sites. We consider the internal control weakness and
    ICP noncompliance to be immaterial and therefore will not impact the reliability
    of the DeCA BRAC 2005 data.

    We discussed our findings with DeCA management after each data call and upon
    the completion of the audit. DeCA management concurred with our findings.




                                         7
Appendix A. Scope and Methodology
           We evaluated the validity, integrity, and supporting documentation of DeCA
           BRAC 2005 data. The evaluation included comparing responses to supporting
           documentation and reviewing “Not Applicable” responses to determine whether
           they were reasonable and not default “Not Applicable” responses.8 Questions
           required either an answer or a “Not Applicable” response; a “Not Applicable”
           response was provided when either DeCA BRAC officials or the specific site
           determined that the question did not apply to the location. However, we did not
           verify if responses made it into the OSD Database. We evaluated whether the
           DeCA ICPs incorporated the requirements of the OSD ICP. We also evaluated
           site data collection processes to determine whether they were in compliance with
           the DeCA ICPs by completing nondisclosure agreements and properly
           maintaining e-mail information and collecting, marking, safeguarding, and
           maintaining BRAC data. In addition, we interviewed the personnel responsible
           for answering, reviewing, and certifying the responses to the data calls.

           Capacity Analysis Data Call. The OSD BRAC Office sent DeCA Headquarters
           753 capacity analysis data call questions. DeCA BRAC officials reviewed those
           questions and selected specific questions to forward to each DeCA site. DeCA
           BRAC officials forwarded 79 questions to DeCA Headquarters; 43 questions to
           each of the 3 regional offices located in the continental United States; and
           6 questions to each of the 188 commissaries located in the continental United
           States, Hawaii, Alaska, Puerto Rico, and Guam. We did not validate the selection
           process or the questions not forwarded to the sites.

           We evaluated the data call responses at each DeCA site visited. We visited DeCA
           Headquarters; the three regional offices in the continental United States; and
           because of time constraints, we judgmentally selected four commissaries in the
           Eastern Region, three in the Midwest Region, and three in the Western Pacific
           Region to visit. We selected these commissaries because of their proximity to the
           regional offices. We issued 14 site memorandums to summarize the site visit
           results. Table 1 identifies the questions reviewed at each site.




−
8
    The automated data collection tool, Web-based Information Data Gathering Entry Tool, used by DeCA
    originally marked all responses as “Not Applicable.”

                                                    8
             Table 1. Capacity Analysis Data Call Questions Reviewed


           DeCA Site                                   Question
                                         Answered                Not Applicable
DeCA Headquarters,               22, 27, 97-98, 106, 112,   23-24, 99-100, 105, 109,
Fort Lee, Virginia               301-302, 305, 311,         111, 304, 310, 315, 350,
                                 313-314, 316-322,          352, 354, 356, 358, 360,
                                 324-330, 347, 355, 363,    362, 364-365, 369, 372,
                                 366, 371, 383, 386-387,    376, 378-379, 381-382,
                                 393, 446, 448, 461-462,    384-385, 460, 463, and
                                 464-468, 471, 480, 482,    479
                                 and 582
Eastern Region,                  97-98, 311, 316, 325,      23-24, 99-100, 111,
Virginia Beach, Virginia         330, 347, 371, 386-387,    301-302, 304-305, 310,
                                 and 393                    315, 317, 350, 352, 354,
                                                            356, 358, 360, 362,
                                                            364-366, 372, 376,
                                                            378-379, 382, 384-385,
                                                            446, 460, and 479
Midwest Region,                  97-98, 311, 316, 325,      23-24, 99-100, 111,
San Antonio, Texas               330, 347, 371, 386-387,    301-302, 304-305, 310,
                                 and 393                    315, 317, 350, 352, 354,
                                                            356, 358, 360, 362,
                                                            364-366, 372, 376,
                                                            378-379, 382, 384-385,
                                                            446, 460, and 479
Western Pacific Region,          97-98, 311, 325, 330,      23-24, 99-100, 111,
Sacramento, California           347, 371, 386-387, and     301-302, 304-305, 310,
                                 393                        315-317, 350, 352, 354,
                                                            356, 358, 360, 362,
                                                            364-366, 372, 376,
                                                            378-379, 382, 384-385,
                                                            446, 460, and 479
Camp Pendleton Commissary,       330 and 477                302, 304, 460, and 479
Camp Pendleton, California
Fort Belvoir Commissary,         330 and 477                302, 304, 460, and 479
Fort Belvoir, Virginia
Fort Sam Houston Commissary,     330 and 477                302, 304, 460, and 479
Fort Sam Houston, Texas




                                        9
               DeCA Site                                            Question
                                                  Answered                      Not Applicable
Lackland Air Force Base                    330 and 477                     302, 304, 460, and 479
Commissary,
Lackland Air Force Base, Texas
Little Creek Naval Amphibious              330 and 477                     302, 304, 460, and 479
Base Commissary,
Little Creek Naval Amphibious
Base, Virginia
Miramar Marine Corps Air                   330 and 477                     302, 304, 460, and 479
Station Commissary,
Miramar Marine Corps Air
Station, California
Norfolk Naval Station                      330 and 477                     302, 304, 460, and 479
Commissary,
Norfolk Naval Station, Virginia
Quantico Marine Corps Base                 330 and 477                     302, 304, 460, and 479
Commissary,
Quantico Marine Corps Base,
Virginia
Randolph Air Force Base                    330 and 477                     302, 304, 460, and 479
Commissary,
Randolph Air Force Base, Texas
San Diego Naval Base                       330 and 477                     302, 304, 460, and 479
Commissary,
San Diego Naval Base, California


           Second Data Call. The JCSGs sent DeCA Headquarters: 41 Headquarters and
           Support Activities JCSG military value questions (1900 through 1927, 1947
           through 1957, and 1961 through 1962); 12 Headquarters and Support Activities
           JCSG supplemental capacity questions (4072 through 4074, 4079 through 4081,
           4096, and 4099 through 4103); 1 Education and Training JCSG supplemental
           capacity question (4000); 5 Medical JCSG supplemental capacity questions (4242
           through 4246); 8 COBRA questions (1500 through 1507); and 22 JPAT 7 (1400
           through 1421) questions.9 DeCA BRAC officials reviewed those questions and
           selected specific questions to forward to each DeCA site. We did not validate the
           selection process or the questions not forwarded to the sites. However, DeCA
           complied with the OSD requirement to have all stand-alone facilities, which
           included leased facilities, answer JPAT 7 and COBRA data call questions.

           The DeCA BRAC officials forwarded questions to DeCA Headquarters, the
           Nichols II building, the Human Resources Department, the three regional offices,
           seven stand-alone commissaries, and six commissaries within the National Capital
           Region. Specifically, the DeCA BRAC officials forwarded DeCA Headquarters
−
9
    The JPAT 7 group made the decision to replace JPAT 7 questions 1418 and 1419 with JPAT 7 questions
    1420 and 1421.

                                                   10
56 questions; the Nichols II building 46 questions; the Human Resources
Department 64 questions; and based on their geographical location, the regional
offices 66 to 85 questions; and the commissaries 5 to 44 questions.

Because of time and funding constraints, we judgmentally selected to visit only
DeCA Headquarters and the three regional offices. We considered this sufficient
because, for the second data call, DeCA Headquarters had the responses and
supporting documentation for Headquarters, the Nichols II building, and the
Human Resources Department. The regional offices had the responses and
supporting documentation for the regional office and the responding
commissaries within their respective region. For the DeCA Western Pacific
Region commissaries, we initially reviewed two commissaries, McClellan and
Barbers Point, then expanded our scope to include three additional commissaries,
March Air Reserve Base, Moffett Field, and Ord Community. For the additional
commissaries, we limited our review to selected questions that contained errors
during our initial review of McClellan and Barbers Point Commissaries. In
addition, we followed up on outstanding issues from the capacity analysis data
call at all sites visited during the second data call. We evaluated the following at
each site visited:

       •   DeCA Headquarters: 56 DeCA Headquarters questions; 64 Human
           Resources Department questions; and 46 Nichols II Building
           questions, as well as questions 329 and 477 from the capacity analysis
           data call.

       •   Eastern Region: 85 Eastern Region questions and 5 for each National
           Capital Region Commissary.

       •   Midwest Region: 82 Midwest Region questions and 44 Harrison
           Village Commissary questions, as well as questions 311, 316, 330,
           386, and 387 that remained unresolved from the capacity analysis data
           call.

       •   Western Pacific Region: 66 Western Pacific Region questions;
           27 Barbers Point Commissary questions; 15 March Air Reserve Base
           Commissary questions; 27 McClellan Commissary questions;
           7 Moffett Field Commissary questions; and 15 Ord Community
           Commissary questions, as well as questions 311, 325, 330, 347, 371,
           386, 387, and 393 from the capacity analysis data call.

We issued four site memorandums to summarize the site visit results. Table 2
identifies the questions reviewed at each site.




                                     11
                       Table 2. Second Data Call Questions Reviewed

           DeCA Site                                  Question
                                         Answered               Not Applicable
DeCA Headquarters,                1905, 1907-1911,         1900, 1904, 1906, 1912,
Fort Lee, Virginia                1913-1917, 1961-1962,    1918-1927, 1947-1957,
                                  and 4080-4081            4000, 4072-4074, 4079,
                                                           4096, 4099-4103, and
                                                           4242-4246
DeCA Human Resources              1505, 1909-1911, 1918,   1500-1504, 1506-1507,
Department,                       and 4096                 1900, 1904-1908,
Arlington, Virginia                                        1912-1917, 1919-1927,
                                                           1947-1957, 1961-1962,
                                                           4000, 4072-4074,
                                                           4079-4081, 4099-4103,
                                                           and 4242-4246
Nichols II,                       1400-1417, 1420-1421,    1500, 1502, 1506-1507,
Hopewell, Virginia                1501, 1503-1505, and     4000, 4072-4074,
                                  4096                     4079-4081, 4099-4103,
                                                           and 4242-4246
Eastern Region,                   1400-1417, 1501,         1500, 1502-1503,
Virginia Beach, Virginia          1504-1505, 1911-1914,    1506-1507, 1900-1910,
                                  1916, 4080, and 4096     1915, 1917-1927,
                                                           1947-1957, 1961-1962,
                                                           4000, 4072-4074, 4079,
                                                           4081, 4099-4103, and
                                                           4242-4246
Midwest Region,                   1400-1417, 1501,         1500, 1502-1503,
San Antonio, Texas                1504-1505, 1911, 1916,   1506-1507, 1900,
                                  and 4096                 1904-1910, 1912-1915,
                                                           1917-1927, 1947-1957,
                                                           1961-1962, 4000,
                                                           4072-4074, 4079-4081,
                                                           4099-4103, and
                                                           4242-4246
Western Pacific Region,           1400-1417, 1501,         1500, 1502-1503,
Sacramento, California            1504-1505, 1911,         1506-1507, 1900,
                                  1913-1917, 1950, 4080,   1904-1910, 1912,
                                  and 4096                 1918-1927, 1947-1949,
                                                           1951-1957, and
                                                           1961-1962
Andrews Air Force Base            4099-4103(V-G.1, p2,
Commissary,                       bullet 2)
Andrews Air Force Base,
Maryland(V-G.1, p2, bullet 2)


                                        12
           DeCA Site                                      Question
                                          Answered                 Not Applicable
Barbers Point Commissary,           1400-1417, 1501,           1500, 1502-1503, and
Kapolei, Hawaii                     1504-1505, and 4096        1506-1507
Bolling Air Force Base              4099-4103
Commissary,
Bolling Air Force Base, District
of Columbia
Fort Belvoir Commissary,            4099-4103
Fort Belvoir, Virginia
Fort Myer Commissary,               4099-4103
Fort Myer, Virginia
Harrison Village Commissary,        1400-1417, 1501,           1500, 1502-1503,
Indianapolis, Indiana               1504-1505, and 4096        1506-1507, 4000,
                                                               4072-4074, 4079-4081,
                                                               4099-4103, and
                                                               4242-4246
March Air Reserve Base              1401, 1405, 1410,          1500, 1502-1503, and
Commissary,                         1412-1414, 1416, 1501,     1506-1507
Riverside, California               and 1504-1505
McClellan Commissary,               1400-1417, 1501,           1500, 1502-1503, and
McClellan, California               1504-1505, and 4096        1506-1507
Moffett Field Commissary,           1401, 1405, 1410,
Moffet Field, California            1412-1414, and 1416
Ord Community Commissary,           1401, 1405, 1410,          1500, 1502-1503, and
Monterey, California                1412-1414, 1416, 1501,     1506-1507
                                    and 1504-1505
Quantico Marine Corps Base          4099-4103
Commissary,
Marine Corps Base Quantico,
Virginia
Walter Reed Army Medical            4099-4103
Center Commissary,
Silver Spring, Maryland

       At DeCA Headquarters, we evaluated the reasonableness of all second data call
       responses submitted by the DeCA Regional offices. Supporting documentation
       was not available at Headquarters, so we were unable to validate the response
       against the support. Instead, we considered whether the response appeared
       reasonable for the site. The responses for Kodiak Commissary questions 1420
       and 1421 and Western Pacific Region question 1917 appeared unreasonable, and
       DeCA BRAC personnel contacted the sites and processed change adjudications
       for these questions and requested that the site forward supporting documentation.

       However, we did not do the following:




                                           13
                    •    Verify the accuracy of supporting documentation for Headquarters and
                         Support Activities JCSG military value questions 1907 and 1908, and
                         Headquarters and Support Activities JCSG supplemental capacity
                         questions 4099 through 4103. This was because the supporting
                         documentation requested, such as Microsoft Outlook calendars and
                         expert memorandums, could not be validated.

                    •    Compare the Nichols II building responses for JPAT 7 questions to
                         supporting documentation. OSD guidance allowed Defense agencies
                         to use the nearest installation’s JPAT 7 answers. Therefore, because
                         of its close proximity to Fort Lee, the Nichols II building submitted
                         Fort Lee’s responses. However, we did review Nichols II building
                         responses to ensure that the responses matched those submitted by Fort
                         Lee.

                    •    Validate the responses to JPAT 7 questions 1420 and 1421 during
                         visits to DeCA Regional offices. The OSD BRAC Office replaced
                         JPAT 7 questions 1418 and 1419 with JPAT 7 questions 1420 and
                         1421, and with the exception of the Nichols II building, sites did not
                         receive the replacement questions before our site visits. Therefore, we
                         did not validate those responses.

            Because we were unable to review the responses to JPAT 7 questions 1420 and
            1421 while at the regional offices, we reviewed the regional and commissary
            responses to those questions during the DeCA headquarters site visit.

            Scenario Specific Data Calls. As of our site visit on January 13, 2005, DeCA
            Headquarters had received seven scenario specific data calls from OSD and
            submitted responses. We evaluated the responses as well as followed up on
            outstanding issues from the second data call. We also reviewed JPAT 7 questions
            from the January 3, 2005, errors and omissions list prepared by the JPAT 7 group
            for the DeCA responses that were either left blank or seemed out of the ordinary.
            The following identifies the questions reviewed at DeCA Headquarters:

                    •    Headquarters and Support Activities JCSG Scenario Specific Data
                         Calls 0029,10 0030, 0031, 0088, 0096, 0097, and 0109;

                    •    Barber’s Point Commissary JPAT 7 errors and omissions question
                         1403;

                    •    Eastern Region JPAT 7 errors and omissions questions 1405 and 1420;

                    •    Harrison Village Commissary JPAT 7 errors and omissions question
                         1415;

                    •    Kodiak Commissary JPAT 7 errors and omissions questions 1405,
                         1406, and 1415, and questions 1420 and 1421 which were outstanding
                         from the second data call;
−
10
     The JCSG followed up on Headquarters and Support Activities scenario specific data call 0029 and asked
     DeCA to submit the same information for a secondary site; a separate question number was not provided.
     Therefore, we did not count it as a separate scenario specific question.

                                                     14
                    •    Moffett Field Commissary JPAT 7 errors and omissions questions
                         1405 and 1406;

                    •    Midwest Region JPAT 7 errors and omissions question 1406;

                    •    Nichols II Building JPAT 7 errors and omissions question 1410;

                    •    Ord Community Commissary JPAT 7 errors and omissions question
                         1405; and

                    •    Western Pacific question 1917, which was outstanding from the
                         second data call.

           We performed this audit from February 2004 through February 2005 in
           accordance with generally accepted government auditing standards.

           Use of Computer-Processed Data. We did not test the accuracy of the
           computer-processed data used to support an answer to a data call question because
           of time constraints. Potential inaccuracies in the data could impact the results.
           We did not review the Web-based Information Data Gathering Entry Tool or data
           gathering tool11 data collection tools used by DeCA. However, the DeCA BRAC
           data was certified by the appointed certifying official as accurate and complete to
           the best of the certifier’s knowledge and belief, and the Air Force Audit Agency
           evaluated the Web-based Information Data Gathering Entry Tool and identified
           no material issues.

           Government Accountability Office High-Risk Area. The Government
           Accountability Office has identified several high-risk areas in DoD. This report
           provides coverage of the Management of Federal Real Property and DoD Support
           Infrastructure Management high-risk areas.

Management Control Program Review
           We did not review the DeCA management control program because its provisions
           were not deemed applicable to the one-time data collection process. However, we
           evaluated the DeCA internal controls for preparing, submitting, documenting, and
           safeguarding information associated with the BRAC 2005 data calls, as directed
           by the applicable ICPs. Specifically, we reviewed procedures that DeCA used to
           develop, submit, and document its data call responses. In addition, we reviewed
           the controls implemented to safeguard the premature disclosure of DeCA BRAC
           data before responses were forwarded to the OSD BRAC Office. Internal
           controls were adequate as they applied to the audit objective (see finding for
           additional details).




−
11
     A modified Microsoft Access tool for those not using an automated data collection tool.



                                                      15
Appendix B. Prior Audit Coverage
    The following DoD IG memoranda and Air Force audit report have been issued
    related to DeCA BRAC 2005.

DoD IG
    Site Memorandums

    DoD IG Memorandum, “Audit on the Second Data Call Submission for
    Headquarters, Defense Commissary Agency for Base Realignment and Closure
    2005,” October 29, 2004

    DoD IG Memorandum, “Audit on the Second Data Call Submission From
    Defense Commissary Agency Western Pacific Region to Defense Commissary
    Agency Headquarters for Base Realignment and Closure 2005,” October 8, 2004

    DoD IG Memorandum, “Audit on the Second Data Call Submission From
    Midwest Regional Office to Headquarters, Defense Commissary Agency for Base
    Realignment and Closure 2005,” September 15, 2004

    DoD IG Memorandum, “Audit on the Second Data Call Submission From the
    Eastern Region Headquarters to the Defense Commissary Agency Headquarters
    for Base Realignment and Closure 2005,” September 8, 2004

    DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
    From Headquarters, Defense Commissary Agency for Base Realignment and
    Closure 2005,” April 12, 2004

    DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
    From Fort Sam Houston Commissary to the Defense Commissary Agency
    Midwest Region for Base Realignment and Closure 2005,” March 25, 2004

    DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
    From Lackland Air Force Base Commissary to the Defense Commissary Agency
    Midwest Region for Base Realignment and Closure 2005,” March 25, 2004

    DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
    From the Midwest Region to the Defense Commissary Agency for Base
    Realignment and Closure 2005,” March 25, 2004

    DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
    From Quantico Marine Corps Base Commissary to the Defense Commissary
    Agency Eastern Region for Base Realignment and Closure 2005,”
    March 25, 2004

    DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
    From Randolph Air Force Base Commissary to the Defense Commissary Agency
    Midwest Region for Base Realignment and Closure 2005,” March 25, 2004


                                     16
    DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
    From Camp Pendleton Commissary to Defense Commissary Agency Western
    Pacific Region for Base Realignment and Closure 2005,” March 24, 2004

    DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
    From the Eastern Region Headquarters to Defense Commissary Agency
    Headquarters for Base Realignment and Closure 2005,” March 24, 2004

    DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
    From Fort Belvoir to Defense Commissary Agency Eastern Region for Base
    Realignment and Closure 2005,” March 24, 2004

    DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
    From the Little Creek Naval Amphibious Base Commissary to the Defense
    Commissary Agency Eastern Region for Base Realignment and Closure 2005,”
    March 24, 2004

    DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
    From Miramar Marine Corps Air Station Commissary to Defense Commissary
    Agency Western Pacific Region for Base Realignment and Closure 2005,”
    March 24, 2004

    DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
    From the Norfolk Naval Station Commissary to the Defense Commissary Agency
    Eastern Region for Base Realignment and Closure 2005,” March 24, 2004

    DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
    From San Diego Naval Base Commissary to Defense Commissary Agency
    Western Pacific Region for Base Realignment and Closure 2005,”
    March 24, 2004

    DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
    From Western Pacific Region to Defense Commissary Agency for Base
    Realignment and Closure 2005,” March 24, 2004

Air Force
    Air Force Audit Agency Report No. F2004-0008-FB4000, “Base Realignment
    and Closure Data Collection System,” September 27, 2004




                                    17
Appendix C. Report Distribution

Office of the Secretary of Defense
Director, Base Realignment and Closure (Installations and Environment)
Director, Defense Commissary Agency

Non-Defense Federal Organizations and Individuals
Government Accountability Office *




−
*
    Only Government Accountability Office personnel involved in the BRAC process are to receive the report.

                                                     18
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Contract Management prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed
below.

Richard B. Jolliffe
Kimberley A. Caprio
Deborah L. Culp
Carol N. Gorman
Benjamin A. Mehlman
Rhonda L. Ragsdale
Daniel S. Battitori
Brian S. Benner
Carolyn J. Davis
Robert P. Goldberg
Melissa M. McBride
Susan R. Ryan
Robert M. Sacks
Patrice L. Berry
Maurice L. Foster
Antwan M. Jackson
Takia A. Matthews
Daniel L. Messner
Shantiki S. Sanders
Meredith H. Johnson
